CLARK COUNTY
OFFICE OF THE DISTRICT ATTORNEY
Criminal Division
STEVEN B. WOLFSON
District Attorney

 

200 Lewis Avenue « Las Vegas, NV 89101 © 702-671-2500 ¢ Fax: 702-455-2294 e TTY and/or other relay services: 711

 

 

 

MARY-ANNE MILLER CHRISTOPHER LALLI — ROBERT DASKAS JEFFREY J. WITTHUN BRIGID J. DUFFY
County Counsel Assistant District Attorney Assistant District Attorney Director D.A. Family Support Director D.A. Juvenile
Danny Bickell, Chief Assistant Clerk November 25, 2020
Supreme Court of the United States
Office of the Clerk

Washington, D.C. 20543-0001

Re: James Earl Ray Walker v. The State of Nevada
No. 20-6386

Dear Mr. Bickell:

The Clark County District Attorney’s Office received notice of the docketing of
the petition for writ of certiorari in this capital-case matter with a due date for a brief in
opposition being December 21, 2020. The Clark County District Attorney’s Office will
be submitting the response on behalf of the State of Nevada.

Due to the heavy workload currently experienced by the appellate section of the
District Attorney’s Office as well as the fact that I am the attorney assigned to respond
and I will be on vacation from November 26, 2020, through December 20, 2020, the
State would respectfully request an extension of time of thirty (30) judicial days within
which to file said response. Such an extension would make the response due on or before
Wednesday, January 20, 2021.

STEVEN B. WOLFSON, District Attorney

 
  

ATHAN E. VANBOSKERCK —
Nevada Bar No. 006528
Chief Deputy District Attorney

   

CC: Joanne Diamond, Counsel for Petitioner
